     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106
August 23, 2010

Report Number: A-07-10-01088

Ms. Joan Henneberry
Executive Director
Colorado Department of Health Care Policy and Financing
1570 Grant Street
Denver, CO 80203

Dear Ms. Henneberry:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Colorado Medicaid Payments for Home Health
Agency Claims Paid to Professional Pediatric Home Care, Inc. We will forward a copy of this
report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-07-10-01088 in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure


HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




REVIEW OF COLORADO MEDICAID
 PAYMENTS FOR HOME HEALTH
   AGENCY CLAIMS PAID TO
   PROFESSIONAL PEDIATRIC
      HOME CARE, INC.




                      Daniel R. Levinson
                       Inspector General

                         August 2010
                        A-07-10-01088
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Department of Health Care
Policy and Financing (State agency) administers the State’s Medicaid program in accordance
with its CMS-approved State plan.

A home health agency (HHA) provides nursing services, home health aide services, and therapy
services to Medicaid recipients. State regulations at 10 Code of Colorado Regulations (CCR)
2505-10, section 8.523.11, specify that HHA services are eligible for reimbursement under
Medicaid only when the services are provided under a physician-signed plan of care and are
medically necessary. Further, according to 10 CCR 2505-10, section 8.130.2, each provider
shall maintain legible records necessary to disclose the nature and extent of goods and services
provided to clients, records which fully substantiate or verify claims submitted for payment.
HHAs submit claims to the State agency in order to receive compensation for the services they
provide to Medicaid recipients.

The responsibilities of the State agency include processing and monitoring HHA claims. As part
of its monitoring responsibilities, and to ensure that it pays medical claims pursuant to Federal
and State requirements, the State agency’s Medicaid Quality Assurance Unit periodically
conducts post-payment reviews of selected HHA services. The State agency then submits to
CMS its Medicaid expenditures for the Federal share of its claimed costs.

Professional Pediatric Home Care, Inc. (PPHC), is an HHA based in Greenwood Village,
Colorado. For the period October 1, 2008, through September 30, 2009, the State agency
claimed $10,000,784 ($6,023,390 Federal share) for HHA services that PPHC provided.

OBJECTIVE

Our objective was to determine whether the State agency claimed costs for HHA services
provided by PPHC in accordance with Federal and State requirements.

RESULTS OF REVIEW

For the 100 sampled beneficiary-months that we reviewed, we determined that the State agency
claimed costs for HHA services provided by PPHC in accordance with Federal and State
requirements. Specifically, PPHC (1) maintained medical records supporting all services
performed and (2) ensured that the services were performed as authorized in the physicians’
signed plans of care.

This report makes no recommendations.

                                                i
                                                  TABLE OF CONTENTS

                                                                                                                      Page

INTRODUCTION...................................................................................................... 1

          BACKGROUND ............................................................................................ 1
              Medicaid Program and Home Health Agency Services ...................... 1
              Colorado Department of Health Care Policy and Financing ............... 1
              Colorado Home Health Agency Services ............................................ 2
              Professional Pediatric Home Care, Inc. ............................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................... 2
               Objective .............................................................................................. 2
               Scope .................................................................................................... 2
               Methodology ........................................................................................ 3

RESULTS OF REVIEW ........................................................................................... 3

APPENDIX

          SAMPLE DESIGN AND METHODOLOGY




                                                                    ii
                                       INTRODUCTION

BACKGROUND

Medicaid Program and Home Health Agency Services

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1905 of the Act authorizes State Medicaid agencies to provide home health agency
(HHA) services to Medicaid recipients. Pursuant to 42 CFR § 440.70, these services include
skilled nursing services, home health aide services, physical therapy, occupational therapy, and
speech pathology and audiology services.

Colorado Department of Health Care Policy and Financing

In Colorado, the Department of Health Care Policy and Financing (State agency) administers the
State’s Medicaid program. During the period October 1, 2008, through September 30, 2009 (our
audit period), the State agency paid approximately 230,000 Medicaid claims for HHA services.
We grouped the claims into 79,860 beneficiary-months (a beneficiary-month represents a
payment for one beneficiary for one month).

The responsibilities of the State agency include processing and monitoring HHA claims. As part
of its monitoring responsibilities, and to ensure that it pays medical claims pursuant to Federal
and State requirements, the State agency’s Medicaid Quality Assurance Unit periodically
conducts post-payment reviews of selected HHA services.

On a quarterly basis, the State agency submits to CMS its standard Form CMS-64, Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program (CMS-64 report), to
summarize, by category of service, Medicaid expenditures for Federal reimbursement. CMS
reimburses the State agency the Federal share of the State agency’s claimed costs, based on the
Federal medical assistance percentage (FMAP). The State of Colorado’s FMAP for our audit
period was originally 50.00 percent. The American Recovery and Reinvestment Act of 2009,
P.L. No. 111-5 (Recovery Act), enacted February 17, 2009, authorized the States to receive a
higher FMAP. For the period October 1, 2008, through March 31, 2009, the State of Colorado’s
FMAP was increased to 58.78 percent under the provisions of the Recovery Act. For the period
April 1, 2009, through September 30, 2009, the State of Colorado’s FMAP was increased to
61.59 percent under these same provisions.




                                                1
Colorado Home Health Agency Services

State regulations at 10 Code of Colorado Regulations (CCR) 2505-10, section 8.523.11, require
that HHA services be provided under a plan of care as ordered and signed by a physician.
Specifically, pursuant to Federal regulations at 42 CFR § 484.18, the plan of care must cover the
types of services required and the frequency of visits.

HHAs submit claims to the State agency in order to receive compensation for the services they
provide to Medicaid recipients. According to 10 CCR 2505-10, section 8.528.11, reimbursement
for the services of nursing, physical therapy, occupational therapy, and speech therapy is made
on a per-visit basis, whereby a visit is defined as the length of time required to provide the
needed care, up to a maximum of two and one-half hours. Home health aide services are
reimbursed through the use of two billing units: Basic Units (the first hour of the visit) and, for
visits that last longer than one hour, Extended Units (increments of fifteen minutes up to one-half
hour). In addition, pursuant to 10 CCR 2505-10, section 8.523.11, HHA services are eligible for
reimbursement under Medicaid only when the services are provided under a physician-signed
plan of care and are medically necessary. Further, according to 10 CCR 2505-10, section
8.130.2, each provider shall maintain legible records necessary to disclose the nature and extent
of goods and services provided to clients, records which fully substantiate or verify claims
submitted for payment. HHAs submit claims covering a period of time to the State agency; each
claim may contain multiple types of service.

For the period October 1, 2008, through September 30, 2009, the State agency claimed HHA
services totaling approximately $158.4 million (approximately $95.4 million Federal share) for
127 HHA providers.

Professional Pediatric Home Care, Inc.

Professional Pediatric Home Care, Inc. (PPHC), is an HHA based in Greenwood Village,
Colorado. For the period October 1, 2008, through September 30, 2009, the State agency
claimed $10,000,784 ($6,023,390 Federal share) for HHA services that PPHC provided.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed costs for HHA services
provided by PPHC in accordance with Federal and State requirements.

Scope

We reviewed claims for HHA services totaling $10,000,784 ($6,023,390 Federal share) that
PPHC received from the State agency as reimbursement for the period October 1, 2008, through
September 30, 2009.




                                                2
We did not review the State agency’s overall internal control structure because our objective did
not require us to do so. We did not review the HHA claims in our simple random sample
(discussed below) to determine medical necessity. We limited our internal control review to
those controls related directly to processing and monitoring HHA claims.

We conducted our fieldwork from February through June 2010 at the State agency and at
PPHC’s Greenwood Village, Colorado, location.

Methodology

To accomplish our objective, we:

   •   reviewed Federal and State laws, regulations, and other requirements regarding Medicaid
       reimbursement for HHA services,

   •   interviewed officials at the State agency to gain an understanding of how they administer
       and monitor the Medicaid HHA program;

   •   reconciled the State agency’s electronic claims data to the CMS-64 reports for the period
       October 1, 2008, through September 30, 2009;

   •   grouped the claims data for PPHC into 6,126 beneficiary-months;

   •   selected a simple random sample of 100 HHA beneficiary-months of claims from PPHC,
       totaling $156,365 ($94,085 Federal share);

   •   obtained and reviewed the supporting documentation for each sampled beneficiary-month
       to determine the allowability of the services claimed; and

   •   provided the results of our review to officials from PPHC on March 12, 2010, and
       discussed those results with State agency officials on June 21, 2010.

The appendix details our sampling methodology.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

For the 100 sampled beneficiary-months that we reviewed, we determined that the State agency
claimed costs for HHA services provided by PPHC in accordance with Federal and State
requirements. Specifically, PPHC (1) maintained medical records supporting all services


                                                3
performed and (2) ensured that the services were performed as authorized in the physicians’
signed plans of care.

This report makes no recommendations.




                                               4
APPENDIX
                APPENDIX: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of beneficiary-months (a beneficiary-month represents a payment for
one beneficiary for one month) representing home health agency (HHA) services provided by
Professional Pediatric Home Care, Inc. (PPHC), for claims paid for the period October 1, 2008,
through September 30, 2009.

SAMPLING FRAME

The sampling frame is a database of beneficiary-months consisting of 6,126 beneficiary-months
totaling $10,000,784 ($6,023,390 Federal share) for home health services paid to the provider
PPHC during the period October 1, 2008, through September 30, 2009.

SAMPLE UNIT

The sampling unit is one beneficiary-month.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 sample units (beneficiary-months).

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services, statistical software (RAT-STATS).
